2311 Douglas Street
Omaha, Nebraska 68102-1214

Q@OCKLE

Legal Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-

JANE DOE,
Petitioner,
Vv.
IOWA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of August, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ALEXANDER KORNYA STUART BANNER
ROBERT J. POGGENKLASS Counsel of Record
Towa Legal Aid UCLA School of Law
1111 9th Street Supreme Court Clinic
Suite 230 405 Hilgard Ave.
Des Moines, IA 50314 Los Angeles, CA 90095

(310) 206-8506
banner@law.ucla.edu

Subscribed and sworn to before me this 6th day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

coe EC Cle Qudiow-h, Bale

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38391
Counsel for Respondent:

Louis S. Sloven

Assistant Attorney General

Hoover State Office Building, 2nd Floor
Des Moines, IA 50319

(515) 281-5976
Louie.Sloven@ag.iowa.gov
